No. 21-187
IN THE

Supreme Court of the United States
HAMDI MOHAMUD,
Petitioner,
v.
HEATHER WEYKER,
Respondent.

CERTIFICATE OF COMPLIANCE

I hereby certify that I am a member in good standing of the bar of this Court and
that the Brief of the American Civil Liberties Union, Cato Institute, DKT Liberty
Project, Goldwater Institute, Law Enforcement Action Partnership, and New Civil
Liberties Alliance as Amici Curiae in Support of Petitioner contains 5,909 words and
complies with the word limitation established by Rule 33.1(g)(x) of the Rules of this
Court.
Dated: September 9, 2021

/s/ Theane Evangelis
Theane Evangelis

